U.S. Department of State and
Broadcasting Board of Governors




Office of
Inspector General

Revised Final
FY 2002 Performance Plan



November 2001
                                         Table of Contents


OIG Vision ................................................................................................... 2

OIG Mission ................................................................................................. 2

OIG Responsibilities and Authorities .................................................................... 2

Strategic and Performance Planning, Implementation, and Reporting Responsibilities......... 2

Allocation of Resources.................................................................................... 3

Coordination of Crosscutting Issues ..................................................................... 5

Management Challenges and External Factors Affecting Goal Achievement .................... 5

Measuring Our Success .................................................................................... 6

Verification and Validation of Performance Data ..................................................... 6

Ensuring Operational Integrity and Effectiveness ..................................................... 7

Broadcasting Board of Governors ........................................................................ 9

Strategic Goals

  The Department and the BBG effectively, efficiently, and economically advance the foreign
   policy interests of the United States................................................................ 10

  The Department and the BBG adequately protect the people, information, and facilities
   under their control in the United States and abroad ............................................. 11

  The Department and the BBG have the necessary financial and support systems and
   controls to meet legal and operational requirements ............................................ 13

  The Department and the BBG are free of fraud, waste, abuse, and mismanagement ....... 15




                                                         1
OIG Vision

To support the Department of State and the Broadcasting Board of Governors in achieving
their missions as effectively, efficiently, and economically as possible.


OIG Mission

The mission of the Office of Inspector General is to serve as an independent, objective
reviewer and evaluator of the operations and activities of the U.S. Department of State
and the Broadcasting Board of Governors. We analyze those operations and activities
with a view toward promoting effectiveness, efficiency, and economy. We seek out
instances of fraud, waste, abuse, and mismanagement, and we work to prevent them.
We report to the Secretary of State, the Broadcasting Board of Governors, and the
Congress, keeping them fully and currently informed of significant developments and
serious concerns.


OIG Responsibilities and Authorities

The table below lists the primary legislation and authorities governing the OIG’s mission.

                      Mission Elements                                     Statutory or other Authorities
   Responsibility as Inspector General of the Department of State       Foreign Service Act of 1980
   Conduct audits and inspections of each overseas post and             Foreign Relations Authorization Act
   domestic bureau or office of the Department of State                   of 1986-87
   Assess implementation of U.S. foreign policy                         Omnibus Diplomatic Security and
                                                                          Antiterrorism Act of 1986
   Conduct audits and investigations of agency programs and             Inspector General Act of 1978, as
   operations                                                             amended
   Promote economy, efficiency, and effectiveness of, and prevent
   and detect fraud and abuse in, agency programs and operations
   Keep Congress and the head of agency fully and currently
   informed of problems and deficiencies in agency programs and
   operations
   Audit the financial statements of the Department of State            Chief Financial Officers Act of 1990
                                                                        Government Management and Reform
                                                                         Act of 1994
   Conduct intelligence oversight reviews of overseas missions          Executive Orders 12333 and 12863
   Responsibility as Inspector General of the Department of State and   Omnibus Appropriations Act of 1999
   Foreign Service and the Broadcasting Board of Governors



Strategic and Performance Planning, Implementation,
and Reporting Responsibilities

OIG strategic and performance goals and strategies are developed in consultation with OIG’s
primary customers, including the Department of State (Department), the Broadcasting Board of
Governors (BBG), the Office of Management and Budget (OMB), and the Congress. These


                                                      2
goals focus on the key strategic issues and supporting activities that comprise OIG’s mission to
ensure economy, efficiency, and effectiveness and to detect and prevent, to the extent possible,
waste, fraud, and abuse. These strategic goals are expressed in terms of the impact of OIG’s
work on the programs and operations of the State Department and BBG. Annual performance
goals focusing on the primary elements of OIG operations, including audits, inspections,
investigations, and security and intelligence oversight reviews, are organized around and in
support of these strategic issues.

Strategic and FY 2002 Performance Goals

      Strategic Goal                                   Performance Goals
 The Department and          Identify opportunities for improving the management and operations of
 the BBG effectively,        overseas missions, domestic bureaus, and international broadcasting
 efficiently, and            activities through post management and thematic inspections, audits, and
 economically advance        program evaluations.
 the foreign policy          Evaluate at least eight U.S. Government operations and programs with
 interests of the United     foreign policy implications—especially those under Chief of Mission
 States                      authority or related to international broadcasting and the free flow of
                             information around the world; identify obstacles to the Chief of Mission,
                             Department, or BBG oversight and coordination of the operations and
                             programs; and recommend actions necessary to remove or overcome them.
                             Increase the five-year cycle.
 The Department and          Evaluate at least six Department programs designed to improve security for
 the BBG adequately          its people, buildings, and information, and identify any corrective actions
 protect the people,         necessary to ensure that they meet their stated goals.
 information, and            Identify vulnerabilities and recommend corrective action with respect to
 facilities under their      information systems and security at no fewer than 20 overseas missions.
 control in the United       Increase the cumulative number/percentage of missions and selected bureaus
 States and abroad           receiving security inspections and reviews on a five-year cycle.
 The Department and          Identify challenges and vulnerabilities, with recommendations to address
 the BBG have the            them, for at least 15 Department financial and administrative support
 necessary financial and     programs and activities.
 support systems and         Evaluate Department and BBG progress in measuring performance and
 controls to meet legal      linking performance goals to budget, and recommend improvements, as
 and operational             appropriate.
 requirements
 The Department and          Identify a minimum of $3.75 million in potential monetary benefits as a
 the BBG are free of         result of audit and investigative recommendations to identify waste, fraud,
 fraud, waste, abuse,        abuse, and mismanagement and to improve the efficiency of Department
 and mismanagement           operations and compliance with applicable contracts and grant agreements.
                             Promote awareness and adherence to standards of professional and ethical
                             conduct and accountability; where necessary, conduct thorough and
                             expeditious investigations of fraud, waste, abuse, and mismanagement.




Allocation of Resources

OIG efforts and resources are concentrated on its core functions, as set forth in the Inspector
General Act, namely, audits, inspections (including those related to security and intelligence



                                                   3
matters), and investigations, each headed by an Assistant Inspector General (AIG). In FY
2002, a separate office and an AIG for International Broadcasting Oversight are being
established specifically to address matters related to international broadcasting and to
emphasize the Inspector General’s dual responsibility as the Inspector General for the BBG.
The position of AIG for Information Technology was also established at that time, creating an
office responsible for both internal OIG information technology functions and external reviews
of Department and BBG information technology operations and issues. Support operations are
the offices of Congressional, Public Affairs, and Outreach; Planning, Analysis, and Results;
Administration; and Counsel.

In FY 2002, two new information systems will be established to enable OIG to track its
allocation of resources more closely. The Project Tracking System (PTS) tracks personnel
resources, as well as travel, contractor, and other costs related to specific projects. The OIG
Timesheet System (OTS) tracks employee time and attendance against specific projects and
administrative and support operations. Time data from the OTS is linked to personnel resource
data in the PTS, allowing hours and costs to be tracked by employee and by project.

The PTS and OTS will allow OIG to track more closely the allocation of resources, as well as
the cost of specific projects. By aligning projects with specific performance goals, OIG can
more accurately evaluate expenditure of resources in support of individual goals. FY 2003 will
be the first year that both the PTS and the OTS will be in place for the full year and for which
prior year data is available as a baseline for comparison. This information will assist OIG in
refining its resource estimates and improving the quality of data available for decision-making.

Shown below is the estimated proportion of OIG’s FY 2002 budget of $29 million that has
been allocated in support of OIG’s four strategic goals. More detailed information about
specific work supporting each performance goal is included under the strategic goal sections
that follow.

Strategic Goal 1: Foreign Affairs Management
    27% of resources, or approximately $7.8 million
Strategic Goal 2: Security and Intelligence Oversight
    22% of resources, or approximately $6.4 million
Strategic Goal 3: Financial Management and Controls
    24% of resources, or approximately $7.0 million
Strategic Goal 4: Fraud, Waste, Abuse and Mismanagement
    20% of resources, or approximately $5.8 million

Not included in these totals is 7% of resources, or $2 million, for executive direction.
Requested increases in resource requirements for achievement of specific performance goals
are noted under the appropriate goal, along with more detailed information about strategies
supporting each goal. Resources required may include specialized skills and expertise to be
acquired through training, targeted hiring, or contracting of qualified personnel; cross-training
to expand the knowledge and skills of existing OIG personnel; or the use of multidisciplinary
teams. Ongoing analysis and restructuring of OIG core processes may also identify the need
for further refocusing or reallocating resources. As these resource needs are identified, they
will be incorporated into OIG budgetary, personnel, and other management decisions, and
reflected in subsequent iterations of our performance plan.


                                                4
Coordination of Crosscutting Issues

OIG has used several approaches to address crosscutting issues affecting our goals and
activities:

   Within the Office of Inspector General community, the Inspector General addresses issues
   of common concern with other Inspectors General within the President’s Council on
   Integrity and Efficiency (PCIE) and the Intelligence Inspectors General Forum.
   OIG works with a network of Government Performance and Results Act coordinators from
   across the Office of Inspector General community to share information and to address
   common issues and concerns as they arise.
   As appropriate, we conduct joint audits or reviews of specific issues with the Offices of
   Inspector General of other interested agencies, such as the U.S. Agency for International
   Development. These joint reviews will be identified as we develop our FY 2003 annual
   work plan.

Management Challenges and External Factors Affecting Goal Achievement

OIG faces several of the same management challenges that the Department and other
government entities are struggling to address. These include how best to recruit, retain, and
manage a highly talented and motivated workforce, reduce layers of middle management to
empower front-line staff, and use information technology more effectively to carry out its
mission.

OIG also faces serious challenges in its ability, faced with a highly competitive work
environment, to attract and retain employees who have the advanced technical skills and
knowledge that are essential to the success of our work. To help in addressing these challenges,
OIG has established an internal management goal “to attract and retain employees with the
requisite professional skills and experience in the areas of foreign policy, financial auditing,
investigations, information technology, security, and other areas of need.” Strategies for
achieving our recruitment goal include identifying vacancies in skills and expertise, developing
a recruitment plan for entry and mid-level employees, and using diverse OIG teams to recruit,
interview, and select new employees. Strategies for better retaining quality employees include
establishing a retention program to identify individual needs and collective interests and to
provide training and assignment opportunities, and collecting information from new hires and
departing employees for use by senior managers in improving recruitment and retention
practices.

Current congressional and agency concerns and interests have been addressed during our
annual planning process. However, new foreign policy developments could result in additional
demands that have not been planned for and that exceed the resources available for unplanned
activities. In keeping with our philosophy that this plan is a “living” document, we will
undertake any necessary adjustments as circumstances require.
Measuring Our Success

OIG’s success in achieving its strategic and performance goals is measured, for the most part,
in terms of traditional measures of OIG operations.


                                                5
   Recommendations resolved or agreed to by management within six months of issuance
   indicate the agency’s acknowledgment of a problem in a timely manner and a willingness
   to correct it, resulting in desired improvements.
   Recommendations implemented within one year of issuance indicate that necessary actions
   have been taken to correct an identified problem in a timely manner in line with OIG
   recommendation.
   Programs and missions audited, inspected, or otherwise reviewed indicate the scope of
   OIG’s efforts to examine activities, identify deficiencies, and recommend improvements.
   Reports issued indicate the outcome-oriented products that OIG produces.
   Financial measures that include cost efficiencies such as questioned costs and funds put to
   better use, as well as investigative fines and recoveries, indicate the monetary results of
   OIG activities.
   Investigative measures that include reductions in the time required to close employee
   investigations indicate the importance of bringing allegations to resolution in a timely
   manner.

Performance baselines, targets, and data for these measures are presented under the individual
discussions of each performance goal, beginning on page 10.

Verification and Validation of Performance Data

Performance measures are verified and validated in a variety of ways, as appropriate for each
measure.

   Many measures, such as those related to completion of a specific activity, are self-
   measuring, and require little in the way of verification and validation beyond confirmation
   that the activity has been satisfactorily completed.
   Measures involving recommendations issued, resolved, or implemented are based on
   compliance information tracked in OIG’s Compliance Analysis Tracking System (CATS)
   database. This database allows OIG to analyze progress and trends in resolution of OIG
   recommendations by topic and location (overseas posts or domestic bureaus). The status of
   recommendations is verified monthly with Department and BBG offices responsible for
   addressing the recommendations and with OIG offices responsible for evaluating and
   tracking compliance with them.
   Financial measures are based on the mandated measures for audit and investigative
   operations forth in the Inspector General Act. The figures are based on results tracked in
   CATS and reported in the Semiannual Report to the Congress and the Annual Report of the
   PCIE.
   Performance data for investigative measures are tracked in OIG’s Case Management
   System and reported in the Semiannual Report to the Congress and the Annual Report of
   the PCIE.

Information from systems used to track OIG performance data is periodically reviewed and
verified, and is considered adequately reliable for purposes of decisionmaking. The OIG’s
Office of Planning, Analysis, and Results works with OIG management and staff, as necessary,
to oversee and coordinate the verification and validation process; develop the processes



                                               6
necessary to verify and validate performance measures and to coordinate, consolidate, and
analyze data collected by OIG offices; and recommend changes to strategies, indicators, and
measures, as appropriate.

Ensuring Operational Integrity and Effectiveness

In addition to performance goals supporting our four strategic goals, OIG also has established a
performance goal on human resources and a performance goal on the time it takes to complete
projects, along with several other initiatives related to internal management improvements.

Our performance goal on human resources addresses strategies planned and results measured
to address OIG’s human resource needs, as required by OMB Circular A-11. This goal—to
attract and retain employees with the requisite professional skills and experience in the areas
of foreign policy, financial auditing, investigations, information technology, security, and
other areas of need—focuses on strategies to improve OIG recruitment and retention of quality
employees through a focused attrition reduction initiative. This goal will be achieved within
existing resources, although several retention strategies requiring additional resources have
been postponed because of budgetary limitations. These include financial incentives such as
premium pay, recruitment and retention bonuses, college tuition assistance, and student loan
repayment plans.

Strategies to support this goal include:

•   Identifying vacancies in skills and expertise, and developing a recruitment plan for entry
    and mid-level employees.
•   Using diverse OIG teams to recruit, interview, and select new employees.
•   Identifying and recruiting exceptionally qualified FS-02 officers for hard-to-fill positions in
    consular and public diplomacy specialties, and working with the Bureau of Human
    Resources to develop formal “short tour” opportunities of less than two years for Foreign
    Service officers.
•   Establishing a retention program to provide training and assignment opportunities,
    including development of leadership competencies, for interested and qualified staff.
•   Using individual development plans and periodic employee surveys to identify individual
    needs and collective interests, and providing employees with developmental opportunities
    in line with their interests and OIG-wide priorities and requirements.
•   Collecting information from new hires and departing employees for use by senior managers
    in improving recruitment and retention practices.


Success in meeting OIG’s human resources performance goal is based on achieving necessary
staffing levels and a decrease in annual rates of attrition.



             Measure           FY 1999        FY 2000       FY 2001        FY 2002
                                Actual         Actual        Actual        Planned
       Staff on-hand at          256            218            223            225


                                                 7
       end of year
       Annual Attrition          17%           17%           16%            15%
       Rate

Our performance goal on the time it takes to complete projects—to issue a final report or other
product within seven and a half months (225 days) days of starting a project—focuses on
strategies to plan projects in phases that build upon each other, have narrower scopes, and staff
them more aggressively. This goal will be achieved within existing resources, although it will
require us to change not only the way we plan but also the way we do some of our work.

Strategies to support this goal include:

•   Identifying discrete phases of a project that can be conducted separately to produce
    individual reports/products that can be completed in 120 days or less, with each succeeding
    project phase building on prior phases.
•   Where practicable, assigning additional staff to ensure more timely completion.
•   Tracking projects in the project tracking system and, where necessary, taking steps to
    ensure that milestones are met.

Success in meeting OIG’s project completion goal is based on averaging no more than 7.5
months from the time OIG projects are started until they are completed and a report or other
product is issued.


             Measures            FY 1999       FY 2000        FY 2001        FY 2002
                                  Actual        Actual         Actual        Planned
       Average number of           277           267            252            225
       days from project
       start to product
       issuance

Other management improvement initiatives include enhancing OIG’s responsiveness to
Department, BBG, and Congressional requests by improving the quality and timeliness of its
reports by ultimately reducing the average time from project start to product issuance to no
more than six months. Strategies for achieving this goal include streamlining OIG report
production and distribution, implementing a policy of expeditiously posting reports on OIG’s
website, establishing and implementing uniform criteria for OIG report recommendations,
establishing a formal program to measure customer satisfaction with OIG products and
services, and using information from customer surveys to improve OIG products and services
as appropriate. OIG’s success will be measured by the percentage of reports that meet
established milestones and by improvements in customer satisfaction responses.

As part of an effort to ensure the effectiveness of recommendations and the quality of reviews,
OIG has expanded its program of compliance follow-up reviews at previously inspected posts.
Compliance follow-up reviews will be conducted on approximately 20 percent of post
management inspections and 25 percent of security inspections. These reviews will include a
quality assurance review of how well the original inspection was conducted. Success will be



                                                8
measured by the degree to which OIG recommendations have been implemented, and how
effective those recommendations have been in achieving desired improvements.

Broadcasting Board of Governors

The Inspector General for the Department also serves as the Inspector General for the BBG. To
emphasize this dual responsibility, in FY 2002, OIG will establish an AIG for International
Broadcasting Oversight and expanded its interaction with the BBG. The AIG oversees and
coordinates all audit, inspection, and other activities related to the BBG and international
broadcasting issues. The results of these activities and related products will be reported as part
of our performance results in support of our four strategic goals.


                               Foreign Affairs Management

The Department and the BBG effectively, efficiently, and economically advance the foreign
policy interests of the United States

Performance Goal 1: Identify opportunities for improving the management and
operations of overseas missions, domestic bureaus, and international broadcasting
activities through post management and thematic inspections, audits, and program
evaluations.

Strategies:
• Provide senior Department and BBG management, overseas missions, and domestic
    bureaus with assessments of their performance and the quality of their management and
    operations through a comprehensive review of three primary areas: policy implementation,
    resource management, and management controls.
• Identify systemic and mission, bureau and other entity-specific impediments and process
    improvements.
• Induce positive change; encourage self-evaluation and correction, where appropriate;
    provide counseling and advice to employees; and identify problems and recommend
    solutions at overseas missions, domestic bureaus, and international broadcasting facilities.
• Perform post management and thematic inspections, audits, and program reviews of at least
    50 posts and bureaus.




                                                9
Measures:

             Measure          FY 1999       FY 2000       FY 2001        FY 2002
                               Actual        Actual        Actual        Planned
       Recommendations          82%           86%           63%            91%
       Resolved in 6 mos.
       Recommendations          51%           63%           73%            70%
       Implemented in 1 yr.

Resources: OIG has not obtained additional resources to support this performance goal.

Performance Goal 2: Evaluate at least eight U.S. Government operations and
programs with foreign policy implications—especially those under Chief of Mission
authority or related to international broadcasting and the free flow of information
around the world—identify obstacles to Chief of Mission, Department or BBG
oversight and coordination of the operations and programs, and recommend actions
necessary to remove or overcome them.

Strategies:
• Focus audits, thematic inspections and other reviews on issues relating to consular,
    counter-narcotics, law enforcement, international broadcasting and other activities with
    foreign policy implications that are under Chief of Mission authority or related to
    international broadcasting and the free flow of information.
• Identify impediments to the effectiveness and efficiency of these activities and, where
    appropriate, recommend corrective actions.
• Specific issues to be reviewed in support of this goal include:
        - Domestic passport operations
        - BBG performance as a foreign policy tool and its responsiveness to U.S. foreign
            policy interests
        - BBG Television programming and the role of television in international
            broadcasting

Measure:

            Measure           FY 1999       FY 2000       FY 2001        FY 2002
                               Actual        Actual        Actual        Planned
       Programs Reviewed         8              9             7             8
       and Reports Issued

Resources: OIG has not obtained additional resources to support this performance goal.


Performance Goal 3: Increase the cumulative number/percentage of missions and
selected bureaus inspected on a five-year cycle

Strategies:
• Perform post management and thematic inspections, audits, and program reviews of at
    least 50 posts and bureaus.


                                              10
•   Increase the number of missions and selected bureaus inspected and the frequency of
    inspections so that, by FY 2007, each mission and bureau is inspected no less than once
    every five years.
•   Ensure that the missions and selected bureaus that have not been inspected for six or more
    years constitute a majority of those inspected in FY 2003.
•   Where possible, link scheduled domestic bureau and mission inspections to capitalize on
    regional and/or thematic issues.
•   Conduct compliance follow-up reviews on at least 20% of previously inspected posts.

Measure:

            Measure            FY 1999      FY 2000       FY 2001       FY 2002
                                Actual       Actual        Actual       Planned
       Missions Inspected        64%         66%            65%           77%
       within last 5 years

Resources: OIG has not obtained resources to support this performance goal.


                             Security and Intelligence Oversight

The Department and the BBG adequately protect the people, information, and facilities
under their control in the United States and abroad.

Performance Goal 1: Evaluate at least six Department programs designed to improve security
for its people, buildings, and information, and identify any corrective actions necessary to
ensure that they meet their stated goals.

Strategies:
• Examine the management administration of security programs, determine the systemic
    causes of the problems and vulnerabilities, and identify ways to remove or mitigate them.
• Evaluate intelligence coordination and oversight issues between the Department and other
    federal entities.
• Specific issues to be reviewed in support of this goal include:
        - Security at the Department’s headquarters in Washington, DC and domestic
            annexes
        - Continuity of emergency and evacuation communications with headquarters
        - Management of classified holdings overseas
        - Government Information Security Reform Act review
        - Security of consular information technology systems
        - Department and BBG information warfare efforts




                                              11
Measures:

             Measure           FY 1999       FY 2000        FY 2001       FY 2002
                                Actual        Actual         Actual       Planned
       Programs Reviewed           2             6             6              6
       and Reports Issued
       Recommendations           52%           61%            71%           67%
       Resolved in 6 mos.
       Recommendations           38%           75%            59%           82%
       Implemented in 1 yr.

Resources: OIG has not obtained additional resources in support of this performance goal.


Performance Goal 2: Identify vulnerabilities and recommend corrective action with respect to
information security and systems at no fewer than 20 overseas missions.

Strategies:
• Use the methodology developed and piloted in FY 2002 to assess the effectiveness of
    information security systems and programs at overseas missions.
• Continue to modify, as appropriate, and to expand usage of the methodology to assess the
    effectiveness of mission information security programs; including, where applicable, its use
    by OIG inspection and security inspection teams.

Measure:

            Measure           FY 1999        FY 2000        FY 2001       FY 2002
                               Actual         Actual         Actual       Planned
       Missions Reviewed        N/A            N/A            N/A            10

Resources: OIG has not obtained additional resources to support this performance goal.


Performance Goal 3: Increase the cumulative number/percentage of missions and selected
bureaus at which security inspections and reviews are conducted each year until all missions
receive a security inspection at least once every five years.

Strategies:
• Include at least one security specialist on every inspection team.
• Maintain a program of security inspections, security evaluations, and security personnel
    assisting OIG inspection teams that ensures that each mission and bureau (where
    appropriate) has at least a limited security review by OIG once every five years.
• Where possible, obtain detailed security specialists from other federal entities to assist in
    OIG security inspections.
• Perform full or limited scope post security inspections of no fewer than 50 overseas
    missions.




                                               12
Measure:

            Measure            FY 1999      FY 2000        FY 2001       FY 2002
                                Actual       Actual         Actual       Planned
       Missions evaluated        67%          74%           80%            85%
       within last 5 years

Resources: OIG has not obtained additional resources to support this performance goal.



                             Financial Management and Controls

The Department and the BBG have the necessary financial and support systems and
controls to meet legal and operational requirements

Performance Goal 1: Identify challenges and vulnerabilities, with recommendations to address
them for at least fifteen Department financial and administrative support programs and
activities.

Strategies:
• Continue to perform all mandated and, where resources allow, requested audits and reviews
    relating to the Department’s financial statements, grants, and other federal assistance, and
    other applicable support services and activities.
• Assess whether the Department is using the most cost-effective means of providing
    services overseas.
• Review Department workforce planning efforts, with particular emphasis on overseas
    staffing issues identified by the Overseas Presence Advisory Panel.
• Review the adequacy of the steps the Department has taken to maintain their investments in
    human capital.
• Determine the adequacy of the Department’s efforts to “right-size” its operations,
    especially in overseas missions.
• Focus on Department internal information technology and communications systems, the
    ability of Department systems to interface and communicate effectively and efficiently
    with other federal entities, as appropriate, and the Department’s efforts to promote U.S.
    information technology issues successfully abroad.
• Review the Department’s efforts to replace aging, existing systems with modern
    alternatives in areas such as messaging and logistics management.
• Assess the Department’s efforts to incorporate public key infrastructure into its information
    security program.
• Specific issues to be reviewed in support of this goal include:
        - Department systems development
        - Enforcement of export controls
        - Compliance with the National Energy Conservation Policy Act
        - Collections from the public
        - The consolidation of financial services at the Charleston Financial Service Center
        - Department implementation of the Federal Activities Inventory Reform Act of 1998


                                              13
       -    The Department’s domestic administrative support functions
       -    The Foreign Service “Up or Out” system
       -    Personal property management overseas
       -    The timeliness of Civil and Foreign Service retirement claims and payments
       -    BBG controls on equipment
       -    The BBG board structure
       -    BBG human capital management

Measures:

             Measure          FY 1999       FY 2000       FY 2001      FY 2002
                               Actual        Actual        Actual      Planned
       Programs Reviewed         13            14           15            15
       and Reports Issued
       Recommendations          77%           70%          58%           79%
       Resolved in 6 mos.
       Recommendations          65%           81%          75%           92%
       Implemented in 1 yr.

Resources: OIG has not obtained additional resources to support this performance goal.


Performance Goal 2: Evaluate Department and BBG progress in measuring performance and
linking performance goals to budget, and recommend improvements, as appropriate.

Strategies:
• Include steps in every audit and inspection plan to review and assess performance goals
    and measures related to the program or mission being reviewed.
• Monitor Department efforts to establish and use performance goals and measures, and
    recommend improvements, where necessary.
• Evaluate Department success in achieving specified performance goals and linking
    performance goals to its budget.

Measure:

             Measure          FY 1999       FY 2000       FY 2001      FY 2002
                               Actual        Actual        Actual      Planned
       Reports issued            4             4             4             5

Resources: OIG has not obtained additional resources to support this performance goal.




                                              14
                       Fraud, Waste, Abuse, and Mismanagement

The Department and the BBG are free of fraud, waste, abuse, and
mismanagement.

Performance Goal 1: Identify a minimum of $3.75 million in potential monetary benefits as a
result of audit and investigative recommendations to identify fraud, waste, abuse, and
mismanagement and to improve the efficiency of Department operations and compliance with
applicable contracts and grant agreements.

Strategies:
• As part of the audit and inspection process, identify opportunities for cost savings and
    avoidance of costs.
• Audit selected non-governmental organizations, Fulbright commissions, and selected
    contractors to ensure that they are adequately accounting for federal funds and meeting
    grant agreements or contract requirements.
• Identify and address financial malfeasance and vulnerabilities and, where appropriate,
    recommend efforts to effect monetary recoveries.
• Specific issues to be reviewed in support of this goal include:
        - Erroneous domestic vendor payments
        - The Department and BBG travel card programs

Measure:

            Measure            FY 1999      FY 2000       FY 2001        FY 2002
                                Actual       Actual        Actual        Planned
       Cost Savings, Effi-     $9.36         $3.23         $12.49        $3.75
       ciencies, Recoveries,   million       million       million       million
       and Fines

Resources: OIG has not obtained additional resources to support this performance goal.


Performance Goal 2: Promote awareness and adherence to standards of professional and
ethical conduct and accountability; where necessary, conduct thorough and expeditious
investigations of fraud, waste, abuse, and mismanagement.

Strategies:
• Expand outreach to employee audiences on standards of conduct and accountability,
    through presentations to courses for new officers, deputy chiefs of mission, ambassadors,
    and other appropriate audiences.
• Reduce the time that employee investigative cases are open.




                                              15
Measures:

         Measure        FY 1999         FY 2000       FY 2001        FY 2002
                         Actual          Actual        Actual        Planned
       Days cases      Not Available     45% < 100     26% < 100      45% < 100
       open at end                     30%@100-200   21% @100-200   30%@100-200
       of year                         0%@201-300    16% @201-300   5%@201-300
                                          25%>300       37%>300        20%>300
       Days to close     20% < 100       27% < 100     53% < 100      45% < 100
       cases closed    19%@100-200     20%@100-200   20% @100-200   15%@100-200
       during year     15%@201-300     10%@201-300   7% @201-300    5%@201-300
                          46%>300         43%>300       20%>300        35%>300

Resources: OIG has not obtained additional resources to support this performance goal.




                                              16
